U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Anthony W. Knights v. United States of America
S.Ct. No. 21-198
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 6,
2021, and placed on the docket on August 11, 2021. The government’s response is due on
September 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0198
KNIGHTS, ANTHONY W.
USA

ALIZA HOCHMAN BLOOM
NEW ENGLAND SCHOOL OF LAW
154 STUART STREET
BOSTON, MA 02116
781-710-9741
ALIZA.HOCHMAN@AYA.YALE.EDU
STEVE DEMAREST
CENTER ON RACE, INEQUALITY, AND THE
LAW NEW YORK UNIVERSITY SCHOOL OF
LAW
139 MACDOUGAL STREET, 419 O
NEW YORK, NY 10012
215-983-7462
STEVEN.DEMAREST@NYU.EDU
YAIRA DUBIN
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10036
212-728-5946
JEFFREY L. FISHER
STANFORD LAW SCHOOL
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-724-7081
JLFISHER@LAW.STANFORD.EDU

BRADLEY N. GARCIA
O'MELVENY & MYERS LLP
1625 EYE STREET, NW
WASHINGTON, DC 20006-4061
202-383-5160
BGARCIA@OMM.COM

